No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

RICHARD OLIVE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
to the Sixth Circuit Court of Appeals

MOTION TO PROCEED IN FORMA PAUPERIS

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 1 of 3

The Petitioner, RICHARD OLIVE, prays the Court for leave to file the petition
for a writ of certiorari without prepayment of costs and to proceed in forma pauperis.
The Petitioner’s indigency affidavit is included with this motion.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY a true and correct copy of the foregoing instrument was
furnished to:
Office of the United States Attorney
Middle District of Tennessee
110 Ninth Avenue S.
Suite A-961
Nashville, Tennessee 37203
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
by U.S. mail delivery on November 30, 2020.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 3 of 3

